Supreme Court, U.S.
FILED

FEB 1 <i 2020
No. 19-

loso

OFFICE OF THE CLERK

in tfje

Supreme Court of tfje Unttefc States
KAREN BISHOP,
Petitioner,
v.
PALM BEACH COUNTY,
Respondent.
On Petition for a Writ of Certiorari to the
Florida Fourth District Court of Appeals
PETITION FOR A WRIT OF CERTIORARI

Karen Bishop
Petitioner Pro Se
650 N. Penrod Road, #533
Show Low, AZ 85901
(928) 266-5437

February 14,2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
FEB 1 9 2020
OF-FICE OF THE CLERK
SUPREME COURT; II R

1

QUESTION PRESENTED
How can a definition or determination of fitness
be assessed when the Florida Statute 828.073(4)(a)
provides a vague description of fitness, puts the
definition and determination into a judges hands, and
in spite of the evidence provided by the owner at
bench trial and partially suppressed by the court
that the animals will be adequately provided for by
the owner, gives away the petitioners animals and
property.

11

LIST OF PROCEEDINGS
District Court of Appeal of the State of Florida,
Fourth District,
4D19-3152
Karen Bishop v. Palm Beach County
Date of Final Order: November 20, 2019

In the Circuit Court of the Fifteenth Judicial Circuit in
and for Palm Beach County, Florida
50-2018-AP-000062-CAXX-MB
Karen Bishop v. Palm Beach County
Date of Final Opinion: September 17, 2019

Ill

TABLE OF CONTENTS
Page
QUESTION PRESENTED................................

1

LIST OF PROCEEDINGS.................................

11

TABLE OF AUTHORITIES..............................

Vll

PETITION FOR A WRIT OF CERTIORARI....

1

OPINIONS BELOW..........................................

1

JURISDICTION.................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.........................

2

STATEMENT OF THE CASE..... .....................

4

REASONS FOR GRANTING THE PETITION

7

CONCLUSION...................................................

20

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of District Court of Appeal of the State of
Florida Denying Petition for Writ of Certiorari
(November 20, 2019)............................................. la
Order of District Court of Appeal of the State of
Florida Denying Motion to Reverse Strike
(November 7, 2019)............................................... 2a
Order of District Court of Appeal of the State of
Florida for Filing Petition for Writ
(October 14, 2019)................................................. 4a
Mandate from the Circuit Court of the Fifteenth
Judicial Circuit of Palm Beach County
(October 1, 2019)................................................... 5a
Opinion of the Circuit Court of the Fifteenth
Judicial Circuit in and for Palm Beach County,
Florida (September 17, 2019).............................. 7a
Final Judgment of the County Court of the
Fifteenth Judicial Circuit in and for Palm
Beach County (May 18, 2018)............................. 9a
Order of the County Court of the Fifteenth
Judicial Circuit Denying Defendant’s Motion
to Continue (May 4, 2018)................................... 14a
Order on Citations of the County Court of the
Fifteenth Judicial Circuit Court in and for
Palm County (August 17, 2017)......................... 16a

V

TABLE OF CONTENTS - Continued
Page
Statutory Provisions
Relevant Statutory Provisions.................................. 19a
Other Documents
Motion to Remove Label of Animal Cruelty and
Response to Expert Specialty Visit
(May 14, 2018)....................................................... 27a
Motion to Visit Pets Filed in the County Circuit
Court of the Fifteenth Circuit
(April 27, 2018)...................................................... 34a
Defendant’s Motion to Prohibit Filed in the County
Circuit Court of the Fifteenth Circuit
(April 23, 2018)...................................................... 36a
Defendant’s Motion to Visit Pets
(April 23, 2018)...................................................... 38a
Initial Brief of Appellant

(March 11, 2019)........................................... 40a

VI

TABLE OF AUTHORITIES
Page
CASES
Anderson v. Liberty Lobby,
All U.S. 242 (1986)....................................

8

Brown v. State,
166 So.3d. 817 (Fla. Dist. Ct. App. 2015)

13

Daskalea v. Washington Humane Society,
480 F.Supp.2d 16 (D.D.C. 2007)...............

15

Davis v. State,
806 So.2d 1098 (Miss. 2001)......................

10, 12

First Natl Bank ofArizona v. Cities Service
Co., 391 U.S. 253, 88 S. Ct. 1575 (1968).

8

Horning-Kea ting
v. Employers Insurance of Wausau,
969 So.2d 412 (Fla. Dist. Ct. App. 2007)...

18

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. I..........................

2

U.S. Const, amend. IV......................

..2, 8, 9, 17

U.S. Const, amend. V........................

2, 9, 17, 18

U.S. Const, amend. VII.....................

3, 8

U.S. Const, amend. VIII...................

..... 3, 15

U.S. Const, amend. IX......................

..... 3, 10

U.S. Const, amend. XIV, § 1............

3, 11, 17

Vll

TABLE OF AUTHORITIES—Continued
Page
STATUTES
28 U.S.C. § 1257(a)...

1

F.S. § 90.065(1)........

..4, 19

F.S. § 828.073(2).......

4, 5,9

F.S. § 828.073(3).......

4,5

F.S. § 828.073(4)(a)(l)

i, 4, 15

F.S. § 934.03(l)(c)(d).

...4, 18

RCW 16. 52.207, § 4 ..

14

JUDICIAL RULES
Fla. R. App. P. 9.110(a).............

4

Fla. R. App. P. 9.200(b)(4)........

4, 18, 19

Fla. R. App. P. 9.420(d).............

4

Fla. R. Jud. Admin. 2.516(b)(1)

4

OTHER AUTHORITIES
Sonja A. Soehnel,
What Constitutes Statutory Offense of
Cruelty to Animals, Modern Cases, 6
A.L.R., 5th 733 (1992)..............................

12

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Karen Bishop, respectfully asks that
a writ of certiorari issue to review the judgment and
opinion of the Florida Court of Appeal, [DCA#] Appel­
late District, filed on November 20, 2019.

OPINIONS BELOW
The order of the Florida Fourth District Court of
Appeals, dated November 20, 2019, denying a Petition
for Writ of Certiorari is included below at App.la. The
Opinion of the Fifteenth Judicial Circuit Civil Court,
dated September 17, 2019 is included below at App.8a.

JURISDICTION
The Fourth Circuit District Court of Appeal denied
a Petition for Writ of Certiorari on November 20, 2019.
This petition is filed within 90 days of the Fourth
District Court of Appeals denial of discretionary review,
under rules 13.1 and 29.2 of this Court. The jurisdic­
tion of this court is invoked under 28U.S.C. § 1257(a).

2

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
U.S. Constitution
U.S. Const, amend. I
Congress shall make no law respecting an estab­
lishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
U.S. Const, amend. IV
The right of the people to be secure in their
persons, houses, papers, and effects, against unrea­
sonable searches and seizures, shall not be vio­
lated, and no Warrants shall issue, but upon pro­
bable cause, supported by Oath or affirmation,
and particularly describing the place to be sear­
ched, and the persons or things to be seized.
U.S. Const, amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a present­
ment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in
the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without

3

due process of law; nor shall private property be
taken for public use, without just compensation.
U.S. Const, amend. VII
In Suits at common law, where the value in con­
troversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried
by a jury, shall be otherwise re-examined in any
Court of the United States, than according to the
rules of the common law.
U.S. Const, amend. VIII
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.
U.S. Const, amend. IX
The enumeration in the Constitution, of certain
rights, shall not be construed to deny or disparage
others retained by the people.
U.S. Const, amend. XTV, § 1
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

4

Florida Statutes
The following provisions are reproduced in the Appendix:
• Florida Rules of Judicial Administration,
2.516(b)(1)
• Florida Statute Section 828.073(2)
• Florida Statute Section 828.073(3)
• Florida Statute Section 828.073(2)(b)
• Florida Statute Section 828.073(4)(a)(l)
• Florida Statutes, Title VII, Evidence Chap
90, Evidence Code, 90.065(l)
• Florida Statute Section 934.03(l)(c)(d)
• Florida Rules of Appellate Procedure Rule
9.110(a)
• Florida Rules of Appellate Procedure Rule
9.200(b)(4)
• Florida Rules of Appellate Procedure 9.420(d)

STATEMENT OF THE CASE
On May 18, 2018, the lower civil tribunal court
of Palm Beach County awarded custody of petitioners
animals, finch aviary, and driftwood perches with
linen cover that had previously belonged to Petitioners
great grandmother, Mrs. Winters-Riley to Palm Beach
County, in addition to abridging petitioners rights to
pet ownership except by evidentiary Hearing in Palm
Beach County or be arrested, and a demand for a
$10,404.28 judgment.

5

On April 19, 2018 the County of Palm Beach filed
a “Petition For Emergency Hearing” Pursuant to
Florida Statute Section 828.073. According to Florida
Statute Section 828.073(3), written notice is to be
served under Florida Statute 828.073(2) within three
days of the animal custody hearing to the owner and
by service of process. Petitioner received a letter in
the United States mail to attend the hearing. A hearing
date was requested for a determination of custody for
13 animals (cats, dogs, and birds) allegedly in the
possession of petitioner. The County of Palm Beach
claimed that it had received numerous complaints
regarding petitioners animals and that petitioner
had refused to allow officers access to petitioners home.
The County of Palm Beach failed to indicate the reason
for the access refusal, as petitioner asserted this was
a violation of petitioner’s Constitutional rights, and
petitioner would bring the pets outside, whereby the
outside inspection was declined. The county reported
it had issued citations to the petitioner in May and
June of 2017. In an effort to demonstrate adherence
to the County Ordinance, Petitioner agreed to bring
the pets outside. On the scheduled meeting date and
1 day later, petitioner produced only 2 dogs and 1 cat
due to inability to obtain the necessary vaccinations
at the time. Petitioner feared more monetary fines
for the other pets, which would have posed an addi­
tional financial burden due to the fact that petitioner
had just vaccinated 2 of her dogs, and purchased the
required tags. The County reported that it received a
complaint on April 11, 2018 regarding over 30 cats
living in the home and then carried out a search
warrant on April 14, 2018. On subsequent veterinarian
examination the county claimed that the animals were
in poor health conditions, including one dog in heart

6

failure and other dogs with wounds that were not
treated, in addition to broken teeth, ear mites and
fleas.
Petitioner filed a Motion to Visit Pets on April 23,
2018. A Motion to Prohibit was also filed to prohibit the
sale, transfer or killing of her pets until they were
returned back to Petitioner. On April 27, 2018, Peti­
tioner filed a response to the [Petition For] Emergency
Hearing. Petitioner recounted her version of events
from 2007 when her animals were seized, in addition
to the events of April 2018. Petitioner elucidated that
much of what the Animal Care and Control Agency
had alleged was untrue. Petitioner recounted how she
took an emergency trip to Washington, D.C. on March
23, 2019. Petitioner hired a pet sitter after several
interviews with the pet sitter to care for the pets in
their home and in petitioners absence, until March 25,
2019. Petitioner reported that the pet sitter had made
an anonymous report to Animal Care and Control of
Palm Beach County after petitioner left a negative
report regarding the pet sitter to the pet sitter agency.
Petitioner reported she had unrepaired hurricane
damage in her home. Petitioner asserted that she took
basic care of her pets and demanded her pets back.
On April 27, 2018 Petitioner filed another Motion
to Visit Pets. On May 4, 2018 Petitioner filed a Motion
to Reschedule Hearing, requesting the hearing to be
scheduled for one week later. The Motion was denied
the very same day by the trial court, with the reasoning
that Petitioner had failed to demonstrate good cause
as to why the hearing should be rescheduled in one
week. On May 9, 2018 the County filed a Request to
Take Judicial Notice. The county requested the trial
court to take notice of the Order on Citations, which

7

were entered in four separate county court cases; these
were county court case files in which the County had
proceedings against Petitioner. The particular August
16, 2017 Order On Citations ordered that Petitioner
produce all of her animals on August 17, 2017, for an
inspection by Palm Beach County Animal Care and
Control. On May 14, 2018 Petitioner filed a Motion to
Remove Label of Animal Cruelty And Response to
Expert Specialty Visit, arguing that the seizure of
petitioners pets was malicious and violated the Con­
stitution. The trial court entered an order allowing
the specialist to appear telephonically at the upcoming
Hearing. The trial took place May 18, 2018. A Final
Judgment was entered on May 21, 2018, Book #29868,
Page 1967-1970, and the case was disposed by the
judge. On May 21, 2018, Petitioner filed a Notice of
Appeal and an application for determination of civil
indigent status. On September 16, 2019 the Circuit
Court of the Fifteenth Judicial Circuit filed an Opinion,
Per Curium Affirmed. On September 25, 2019, Peti­
tioner filed a Motion For Opinion which was Denied/
clerk to close the case on September 27, 2019. On
October 10, 2019 Petitioner filed a Notice of Appeal
to the Fourth District Court of Appeals and received
the Order on October 14, 2019 that the Appeal would
be treated as this Writ of Certiorari.

REASONS FOR GRANTING THE PETITION
This case presents important issues as to whether
trial by jury be held when Petitioners seized animals
and property are decided to be given away by a court,
in addition to abridgment of pet ownership in Palm

8

Beach County and a demand for a $10404.28 judgment^
“[T]he judges function is to not himself weigh the evi­
dence and determine the truth of the matter but to
determine whether there is a genuine issue for trial”.
Anderson v. Liberty Lobby, All U.S. 242, 249 (1986).
“[T]here is no issue for trial unless there is sufficient
evidence favoring the non-moving party for a jury to
return a verdict for that party”. 477 U.S. at 249; 106
S.Ct. at 2510 (Citing First Natl Bank of Arizona v.
Cities Service Co., 391 U.S. 253, 288-89, 88 S. Ct. 1575,
1592 (1968). According to the Seventh Amendment of
the United States Constitution, in suits at common
law where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved
and no fact tried by a jury, shall be otherwise re­
examined in any Court of the United States, then
according to the rules of the common law. In this case
the controversy’s exceed $20.00 but the right of trial
by jury was not preserved. The judges weight of the
evidence was tilted heavily towards the County,
affecting the outcome of the hearing as evidenced by
giving away pets and property to the County of Palm
Beach, in addition to abridgment of pet ownership
rights and inflicting a $10,404.28 judgment even in
the face of evidence that Petitioner had been suffering
severe financial distress. On April 14, 2018 Palm
Beach County Animal Control Officers entered into
Petitioners family home and seized Beatrice, in addi­
tion to the other pets that Petitioner owned, claiming
they had a search warrant; however, the Fourth
Amendment of the United States Constitution asserts
that the right of the people to be secure in their
persons, houses, papers, and effects, against unrea­
sonable searches and seizures, shall not be violated,
and no Warrants shall issue, but upon probable cause,

9

supported by Oath or affirmation, and particularly^
describing the place to be searched, and the persons
or things to be seized. The significant words in the
Fourth Amendment of the United States Constitu­
tion are probable cause and Oath, which were absent
from the search warrant due to the fact that Adam
Moulton provided false testimony to a criminal court
in order to gain a search warrant. The search warrant
stated that there were 30 cats, 4 dogs, and 4 birds.
The search warrant stated that 6 months earlier there
were more than 50 cats in Petitioner’s residence, which
precisely contradicts what Adam Moulton wrote in his
animal care and control reports, and these facts were
greatly exaggerated by the malicious intent of the
animal control officer and his attorney. At the time of
seizure Beatrice was sleeping comfortably as Beatrice
had finished eating her largest meal of the day which
was breakfast. Petitioner was pulled outside and
then held at gunpoint outside of her home, while the
pets were seized and taken from the family home.
According to the Florida Statute 828.073(2)(a)
animals found in distress, the statute calls for removal
while Beatrice was sleeping peacefully the morning
of April 14, 2018 and no other animal was in distress.
Petitioner was then informed outside of her house
her animals probably wouldn’t be taken, but a call
would be placed to the county attorney. After the phone
call, Animal Care and Control began taking Petition­
er’s animals and things, breaking furniture in the
process, which is a violation of the Fifth Amendment
of the United States Constitution.
Beatrice suffered from a chronic condition most
likely cardiac in nature, as evidenced by our last trip
to Peggy Adams approximately eighteen months prior.

10

It was recommended to take Beatrice either to cardiac
or pulmonary specialty as Peggy Adams animal clinic
provides primary care only at reasonable cost. This
was important as Petitioner had recently lost her main
source of income the same month she took Beatrice
to Peggy Adams. Euthanizing Beatrice was out of the
question as was an expensive specialty visit, and
Petitioner opted for comfort care at home, to include a
holistic heart worm formula from Wolf Creek Ranch
(http://wolfcreekranch.net/heartworm_free.html) and
a holistic bronchodilator called LungGold (https://
www.petwellbeing.com/products/lung-gold). The right
to choose this medical treatment is a constitutional
right guaranteed by the Ninth Amendment of the
United States Constitution.
These holistic medications had worked well for
Beatrice comfort and easy breathing. Petitioner case
was similar to the case of Petitioner Mr. Davis, who was
found guilty of animal cruelty against his horse with
a broken leg. Mr. Davis felt this was unjust and filed
his timely appeal to the Supreme Court of Mississippi.
Davis v. State, No-2000-KM-00630-SCT (Miss. 2001).
Mr. Davis had a young colt who slipped and fell,
sustaining an injury/break very close to the joint
supporting the colts hoof. The colt received care at
home that included an injection and compresses. A
veterinarian was called who examined the colt and
provided to Mr. Davis options for further treatment
of the colt. One of the options was a surgical correction,
or care at home that included weight off the foot,
isolation, medication for pain, and allowing the fracture
to calcify which would leave a permanent limp. Due
to the difference in cost, Mr. Davis chose the second

11

option. For Mr. Davis to euthanize his colt was out of
the question.
About eleven months later, two animal care and
control officers from the SPCA received a complaint
regarding a colt that limped. The two officers obtained
a search warrant and proceeded to inspect the colt,
determining that it was suffering and in pain. A
veterinarian connected with animal care and control
was consulted and the veterinarian concluded that
the colt was in chronic pain as opposed to acute pain.
Subsequently and because of this, the veterinarian
euthanized the colt that belonged to Mr. Davis. Mr.
Davis was not notified of this event, and he found out
about it by reading the incident in the local town news­
paper.
Ultimately Mr. Davis case was reversed and
rendered by the Mississippi Supreme Court as he had
no way of knowing from the face of the Mississippi
statute that he was in violation of the law, and the
Supreme Court of Mississippi discharged Mr. Davis.
The Supreme Court found the Mississippi statute
unconstitutional under the due process Clause of the
Fourteenth Amendment to the United States Consti­
tution and found further that the language of the
statute was too vague for the proper determination of
the mens rea.
In this instance it is not a state right to dictate
to Petitioner whether comfort care may be provided
or not, as that that is a violation of Petitioners con­
stitutional rights, as in the Due process clause of the
Fourteenth Amendment of the United States Consti­
tution. The Florida Statute 828.073 makes no refer­
ence as to provision of comfort care for the animal by
the owner so Petitioner has no way of knowing if pro-

12

viding comfort care and holistic medications at home
is a definition of unfitness or a violation of the statute.
Davis v. State, 806 So.2d 1098 (Miss. 2001). Other
courts have reviewed modern state cases that involve
the interpretation of animal cruelty statutes, and one
of the key issues is the intent with which the accused
has acted. See Sonja A. Soehnel, What Constitutes
Statutory Offense of Cruelty to Animals, Modern
Cases, Annotation, 6 A.L.R., 5th 733, 755 (1992), See
Davis v. State, 806 So.2d 1098 (Miss. 2001). At the
time of the bench trial Petitioner did not have and
could not locate the Peggy Adams receipt as it was in
a password protected laptop. Additionally and at
initiation of the lower court trial opposing council
informed Petitioner the county was seeking custody
of all of Petitioners animals except for one, Beatrice
who was deceased. This came as a great shock to Peti­
tioner as Beatrice was not expected to die and no
one had informed Petitioner of the death of Beatrice.
Opposing council further stated the county was seeking
a judgment of an excess of $10,404.28 and that the
county was pursuing criminal charges against Peti­
tioner.
Prior to the trial the court denied a one week ex­
tension requested by the Petitioner, which precluded
the location of important documentation. Opposing
council then went on to inform the lower court how
petitioner did not provide water to her animals as
the water had been shut off by the City of Boynton
Beach for non-payment, without acknowledging that
the City of Boynton Beach had charged Petitioner
over $600.00 for water that Petitioner had difficulty
paying, and had overcome this obstacle by using nontraditional sources of water.

13
The county alleged that Beatrice had a severe
hookworm infestation but did not provide at trial evi­
dence of a complete blood count which proved anemia.
Brown v. State, 166 So.3d. 817, 819 (Fla. Dist. Ct. App.
2015). The county alleged Beatrice had ear mites and
provided no picture of a mite. The county alleged
Beatrice was flea infested but provided no pictures of
a flea or fleas, and no laboratory evidence of anemia,
indicative of a severe flea infestation due to loss of
blood from flea bites. The county further alleged that
Chewey had a blind eye and a rotten tooth, while
refusing to acknowledge that Chewey was adopted with
preexisting conditions.
Chewey had a habit of biting one of his paws,
and Petitioner would treat the area with Sulfodene, an
over the counter remedy to treat hot spots in canines
to cause a healing. The county did provide darkly tinted
black and white photographs negatively portraying
Beatrice and Chewey in a troubling state. The county
did not acknowledge the fact that Petitioner provided
holistic medications to Beatrice which were effective
and affordable in providing cardiac comfort and bronchodilation. Some of these items, including the artificial
tears, Sulfodene astringent (https://www.amazon.com/
Sulfodene-Medicated-Spot-Relief-Spray/dp/B00X12NL
SM), Diatomaceous earth, Richards Shampoo, handy­
man invoice and note, construction supplies receipt
and check off list which Petitioner kept were omitted
in the evidence list, although Petitioner brought them
to the trial. On the above mentioned primary care visit
for Beatrice and approximately 12 months earlier with
receipt not locatable at time of trial, it was recommend­
ed to visit either cardiac or pulmonary specialty for
further consultation, and that heart surgery in canines

14

was not and is not yet perfected and (Borgarelli,
M., Lanz, O., Pavlisko, N., Abbott, J. A., Menciotti, G.,
Aherne, M.,... Gammie, J. S. 2017). Since euthanasia
was out of the question and the specialty visit was
cost prohibitive at the time, Petitioner opted for
comfort care at home and which is called palliative
care in human terms. The trial court was asked to look
to the Washington statute RCW 16. 52.207, section 4,
if established by the defendant by a preponderance of
the evidence, that the defendant’s failure was due to
economic distress beyond the defendant’s control,
then that defense is an affirmative defense in any
prosecution of animal cruelty. Petitioner ordinarily
would purchase higher quality products for the pets as
was customary in the past before Petitioner suffered
economic distress, and was also qualifying for the
Florida Hardest Hit Fund (www.treasury.gov). The
court repudiated the Washington statute or the eco­
nomic distress. Petitioner provided evidence of newer
income that was initiated two months prior, and a
signed contract with a start date entered into the
contract and dollar figure amount of a salary in black
and white, where Petitioner and the animals would
be relocating to a new state in 3 months, along with
home repair receipts. The court repudiated the evi­
dence of present income which was a social security
pension transitioning into a weekly salary as evi­
denced by future income and the handyman’s letter
to the court providing evidence of the cosmetic repairs,
noting that the structural joists of the roof were intact.
The court stated that the handyman must be physically
present to provide testimony. Regarding the repairs,
the court stated, it was glad that petitioner porch
had been repaired. The court stated that Petitioner
had proven financial distress towards the conclusion

15

of the trial, and before issuing the Summary Judg­
ment. In looking over the evidence, Petitioner did not
see the Handyman note or materials receipt from Home
Depot entered into evidence. Providing this evidence
demonstrated fitness according to Florida Statute
Section 828.073(4)(a)(l), which states that if the
owner is adjudged by the court to be adequately able
to provide for and have custody of the animal(s) in
which case the animal shall be returned to the owner
upon payment by the owner for the care and provision
for the animal(s) while in the agent(s) custody. Peti­
tioner met the above burden by demonstrating ade­
quacy through the evidence brought to trial. The
judgment charge of $10,404.28 is a violation of Eighth
Amendment of the United States Constitution in that
it was an excessive fine and a cruel and unusual
punishment.
Petitioners’ decision to provide care at home for
Beatrice was not unlike the decision plaintiff Willie
Jackson was faced with in Daskalea v. Washington
Humane Society, 480 F.Supp.2d 16, 19 (D.D.C. 2007).
Mr. Jackson alleged that on October 11, 2003, members
of the Humane Society entered his family’s home and
illegally seized the family dog which had previously
developed terminal cancer. The Jacksons were pro­
viding comfort care to their family dog at the time,
and despite numerous demands to the Humane
Society to free the family dog, the Humane Society
refused to return the animal until Mr. Jackson would
approve and pay for major cancer surgery. In an
attempt to satisfy the Humane Society, Mr. Jackson
provided veterinary records from four years prior
demonstrating exemplary medical treatment. This did
not satisfy the Humane Society and a demand was

16

made to Mr. Jackson that his animal was to receive
“radical treatment”. Mr. Jackson was then compelled
to agree to the cancer surgery. The treatment was a
failure and the family dog died. Mr. Jackson did not
receive the opportunity to contest the reasonableness
of the radical cancer surgery treatment. Prior to the
seizure of Beatrice, she was comfortable at home, had
a good appetite and drinking plenty of water. After
Beatrice was seized from her home on April 14, 2018
she was taken to a veterinary cardiology specialty
visit by Palm Beach County Animal Care and Control
Officer Adam Moulton on May 4, 2018. Petitioner has
knowledge of this fact because Petitioner contacted
the veterinary specialty office regarding the treat­
ment and handling of Beatrice. Beatrice was sub­
jected to a long and very hot truck ride. On entering
the specialty visit, Beatrice was placed supine which
she could not tolerate, and most probably sedated for
the testing, which the county denied. No one consulted
Petitioner for permission to perform the radical
testing although Beatrice was the property of Peti­
tioner. According to the veterinarian who testified on
behalf of the county or Palm Beach County Animal
Care and Control, Beatrice was prescribed two cardiac
medications at the time of the cardiac specialty visit.
On May 7th and just two days after initiation of the
“new treatment” Beatrice died. The temperature of
the kennels in the Palm Beach County Animal Care
and Control environment were sweltering to over a
recorded 122 degrees, which Adam Moulton and his
attorney concealed at trial. Beatrice was returned
from the specialty visit back into filthy and inhuman
conditions where she ultimately succumbed to the
environment. In this event Petitioner feels that Bea­
trice was euthanized without her owners knowledge

17

or permission. Petitioners position was similar to Mr^
Jackson in that both parties were providing to their
pet the care they felt was best at the time without
government interference. The management and treat­
ment of both Mr. Jackson’s and Petitioners family
dog by the government agency ultimately ended in the
demise of the beloved pets. In this event Respondents
conduct violates Petitioners rights under the Fourth,
Fifth, and Fourteenth Amendment by illegally detain­
ing Beatrice, by extorting unjustified fees for Beatrice
and the other seized pets, and by compelling Beatrice
to medical treatment that killed her. Respondents
Adam Moulton of Palm Beach County Animal Care
and Control cloaked as Palm Beach County and his
attorney then moved on by filing criminal charges
holding Petitioner accountable for the death of Beatrice,
and alleging that the finches and other animals,
including Beatrice were unlawfully contained and
abandoned, which is not true.
Respondents alleged that the other animals were
in poor condition, however and seven days prior to
the seizure of Petitioners animals, Officer Jarrett of
Palm Beach County Animal Care and Control made
a visit to Petitioners home based on the pet sitters
complaint. Jarrett repeatedly asked if she could “come
inside and look around” and “are you going to let me
look inside?”.
Jarret’s request was declined as prescribed by
the Fourth Amendment of the United States Constitu­
tion. Jarrett reported that Abby, Chewey and Hailey
were in good condition according to her rating scale
and physical inspection. The other pets, including
Beatrice and the birds were not brought out as Beatrice
could not tolerate the heat, and the other pets were not

18

updated with vaccines. Jarrett made note that the
backyard was “strewn with garbage” and that the
home had been abandoned or was an abandoned home,
which was false. Jarrett made note of a strong “odor
of ammonia” but made no reference of how she mea­
sured this odor.
At trial, Petitioner later learned that Respondents
Adam Moulton and his attorney tape recorded portions
of Petitioners testimony without her consent or know­
ledge that the testimony was being audio recorded.
Simultaneously, and while holding eye contact with
the opposing council and Moulton, the trial judge
was asking incriminating and leading questions of the
Petitioner so that this information could be preserved
on tape. Petitioner had a very strong negative intuitive
feeling at this juncture in the trial but was unable to
locate the source. The source eventually revealed itself
by way of the recorded tape which was provided to
the Petitioner. The tape recording of Petitioner without
her consent or knowledge is an invasion of privacy and
a violation of the Florida’s Security of Communications
Act, Florida Statute 934.03(l)(c)(d), Horning-Keating
v. Employers Insurance of Wausau, 969 So.2d 412
(Fla. Dist. Ct. App. 2007) and a Violation of the Fifth
Amendment of the Constitution of the United States.
In the Horning-Keating case, the judge of compen­
sation claims found this conduct to be reprehensible
and shameful.
While Respondents collected an audiotape for
themselves at the trial, Petitioner was not informed
to make arrangements for trial transcription. According
to Rule 9.200(b)(4) of the Florida Rules of Appellate
Procedure a method is provided where a party can
attempt to overcome the lack of a transcript or record

19

evidence in order to obtain appellate review of a
decision that is erroneous. On an occasion such as
this where there is no court transcript an appellant
may prepare a statement of the proceedings or the
evidence, using the best means available, and this
may include the appellants recollection. If a Writ of
Certiorari is granted Rule 9.200(b)(4) will provide the
prescription as Petitioner prepared a written record
of events immediate post bench trial on advice from
council.
At trial, Petitioner was placed under oath by the
trial judge before providing testimony. The telephonic
testimony of the cardiac veterinary specialist was
excluded, as the court concluded it could not place this
individual under oath. This seemed exceptionally odd
to Petitioner, as no one else who provided testimony
at the trial was placed under Oath. According to the
2017 Florida Statutes, Title VII, Evidence, under
Chapter 90, Evidence Code, 90.065(l), the statute
prescribes that before testifying, each witness shall
declare that he or she will testify truthfully, by taking
an oath or affirmation, and this in substantiality is
to be in the following form: “Do you swear or affirm
that the evidence you are about to give will be the
truth, the whole truth, and nothing but the truth?”
The witnesses’ answer shall be noted in the record.
Petitioner urges this Court to take review in
order to determine the question of fitness and how
the petitioner met the burden of proof which was
ether suppressed or repudiated by the bench trial,
whether abridgment of Petitioners rights is Constitu­
tional in scope, and whether a Summary Judgment
of over $10,000.00 is appropriate in the face of the

20

evidence the petitioner brought to the bench trail as
justice has not been attained in this matter.

CONCLUSION
For the foregoing reasons, Petitioner requests that
this Court grant the Writ of Certiorari.
Respectfully submitted,
Karen Bishop
Petitioner Pro Se
650 N. Penrod Road, #533
Show Low, AZ 85901
(928) 266-5437
February 14,2020

